            AUDIT OF THE

     OKLAHOMA HIGHWAY PATROL’S

EQUITABLE SHARING PROGRAM ACTIVITIES


       U.S. Department of Justice

     Office of the Inspector General

              Audit Division



  Audit Report Number GR-60-13-014

           September 2013

                       AUDIT OF THE

                OKLAHOMA HIGHWAY PATROL’S

           EQUITABLE SHARING PROGRAM ACTIVITIES


                             EXECUTIVE SUMMARY


      The U.S. Department of Justice (DOJ), Office of the Inspector
General (OIG), Audit Division, has completed an audit to assess whether the
Oklahoma Highway Patrol (OHP) accounted for DOJ equitable sharing funds
and property, and used such revenues for allowable purposes as defined by
applicable guidelines. The audit covered the OHP’s fiscal years (FY) 2010
through 2012, beginning on July 1, 2009, and ending on June 30, 2012.
During the audit period, the OHP received $7,987,242 in equitable sharing
funds and spent $7,763,489, primarily on communications equipment and
computers, buildings and improvements, salaries and overtime, and
miscellaneous expenses.

      We found that the OHP complied with equitable sharing guidelines with
respect to maintaining and updating a DAG-71 log to track its equitable
sharing requests and receipts, submitting its most recent Equitable Sharing
Agreement and Certification form on time, and adhering to non-supplanting
requirements. 1 However, our audit identified weaknesses in the OHP’s
accounting for equitable sharing resources. Specifically, the OHP:
(1) maintained accounting records that did not adequately identify the
personnel whose salaries, benefits, and other payroll costs were being paid
with equitable sharing funds, and combined the salaries and benefits of two
OHP employees; (2) commingled its DOJ and Department of Treasury
(Treasury) equitable sharing funds in the same expenditure ledger;
(3) commingled its DOJ and Treasury equitable sharing revenues in the same
interest-bearing account, and overstated the DOJ share of earned interest
income; and (4) did not have internal controls to track tangible property
purchased with equitable sharing funds. OHP also did not request approval
from the Asset Forfeiture and Money Laundering Section (AFMLS) prior to
making a capital expenditure with equitable sharing funds.

      In addition, we identified $1,697,433 in unallowable questioned costs
and $210,216 in unsupported questioned costs related to expenditures and the
use of seized tangible property including: (1) construction and renovation
costs; (2) salaries, benefits and overtime paid to OHP non-law enforcement
personnel; (3) fees paid to contractors; (4) fuel and other vehicle


       1
          A Form DAG-71, Application for Transfer of Federally Forfeited Property, is
submitted by a state or local agency to request a share of seized property from the federal
seizing agency. A DAG-71 log is used to track its requests and should contain the seizure
type, amount, share amount requested, amount received, and date received.
expenditures; (5) pickup trucks used by Oklahoma Department of Public
Safety non-law enforcement personnel; and (6) use of a seized semi-tractor
and trailer for non-law enforcement purposes.

      This audit report includes eight recommendations to the Criminal
Division, which oversees the use of equitable sharing funds by recipients. Our
findings are discussed in greater detail in the Findings and Recommendations
section of the report. The audit objectives, scope and methodology are
contained in Appendix II.




                                      ii
                        AUDIT OF THE

                 OKLAHOMA HIGHWAY PATROL’S

            EQUITABLE SHARING PROGRAM ACTIVITIES



INTRODUCTION ................................................................................ 1

  DOJ Equitable Sharing Program ...........................................................1

  The Oklahoma Highway Patrol .............................................................3

  OIG Audit Approach ...........................................................................4

FINDINGS AND RECOMMENDATIONS................................................ 5

  Accounting for Equitable Sharing Resources ..........................................5

     Accounting Records .........................................................................6

     Commingling of Federal Forfeiture Funds ...........................................6

     Accounting for Tangible Property.......................................................7

     DAG-71s ........................................................................................8

  Equitable Sharing Agreement and Certification Forms.............................8

  Use of Equitable Sharing Resources .....................................................9

     Use of Equitable Sharing Funds....................................................... 10

     Use of Equitable Sharing Property ................................................... 13

  Supplanting .................................................................................... 14

  Recommendations ........................................................................... 14

STATEMENT ON INTERNAL CONTROLS............................................ 16

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 17

APPENDIX I:          SCHEDULE OF DOLLAR-RELATED FINDINGS ............ 18

APPENDIX II:           OBJECTIVES, SCOPE, AND METHODOLOGY............. 19

APPENDIX III: CRIMINAL DIVISION RESPONSE TO THE DRAFT 

REPORT .......................................................................................... 21

APPENDIX IV: OKLAHOMA HIGHWAY PATROL RESPONSE TO THE

DRAFT REPORT ............................................................................... 23

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

SUMMARY OF ACTIONS NECESSARY TO RESOLVE THE REPORT ...... 28

                                        INTRODUCTION

       The U.S. Department of Justice (DOJ), Office of the Inspector
 General (OIG), Audit Division, has completed an audit of the use of DOJ
 equitable sharing funds by the Oklahoma Highway Patrol (OHP). The
 objectives of the audit were to assess whether the OHP accounted for equitable
 sharing funds and property, and used such revenues for allowable purposes as
 defined by applicable guidelines. The audit covered the OHP’s fiscal years
 (FY) 2010 through 2012. 2 During that period, the OHP received $7,987,242
 in proceeds as a participant in the DOJ Equitable Sharing Program. OHP’s
 equitable sharing fund balances, expenditures, and revenues are displayed in
 Exhibit 1.

         EXHIBIT 1:         OHP EQUITABLE SHARING FUND INFORMATION
                                   FYs 2010 - 2012 3
                                             EQUITABLE
             BEGINNING      EQUITABLE        SHARING                                 ENDING
FISCAL         FUND          SHARING           FUNDS       INTEREST      OTHER        FUND
 YEAR         BALANCE     EXPENDITURES 4     RECEIVED       INCOME       INCOME      BALANCE


2010         $4,820,163    ($5,155,556)     $2,920,485     $146,775       $500      $2,732,367
2011         $2,732,367    ($1,182,501)     $3,215,980     $105,894     $43,750     $4,915,490
2012         $4,915,490    ($1,426,003)     $1,850,777     $142,571     $176,359    $5,659,194

TOTAL          N/A        ($7,764,060)     $7,987,242     $395,239      $220,609       N/A
 Source:      OHP certification forms

 DOJ Equitable Sharing Program

        Since the Comprehensive Crime Control Act of 1984 authorized the
 implementation of a national asset forfeiture program, asset forfeiture has
 become one of the most powerful tools available to law enforcement agencies
 because it deprives criminals of the profits and proceeds derived from their
 illegal activities. A key element of the DOJ’s asset forfeiture program is the
 DOJ Equitable Sharing Program, whereby the DOJ and its components share a
 portion of federally forfeited cash, property, and proceeds with state and local
 law enforcement agencies.


         2
              OHP’s fiscal year begins on July 1 and ends on June 30.
         3
           Throughout this report, differences between the individual amounts and totals are
 due to rounding.
         4
            OHP’s certification forms reported $7,764,060 in total expenditures from FYs 2010
 through 2012 which was $571 greater than the $7,763,489 in total expenditures that we
 identified in its accounting records. We did not break down this difference because its amount
 was immaterial.


                                                 1

       State and local law enforcement agencies may receive equitable sharing
revenues by either participating directly with DOJ agencies in joint
investigations leading to the seizure or forfeiture of property, or by seizing
property and requesting one of the DOJ agencies to adopt the seizure and
proceed with federal forfeiture. In joint investigations, the amount shared
with the state and local law enforcement agencies is based on the degree of the
agencies’ direct participation in the case. In adoptive seizures, the state and
local law enforcement agencies may receive all of the forfeiture funds other
than the DOJ’s share, which is generally 20 percent of the net proceeds. The
U.S. Department of the Treasury (Treasury) administers a similar equitable
sharing program; our audit was limited to equitable sharing revenues received
through the DOJ Equitable Sharing Program.

       Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing governing
legislation, and monitoring the use of DOJ equitable sharing funds. Generally,
the use of equitable sharing revenues by state and local recipient agencies is
limited to law enforcement purposes. However, under certain circumstances,
up to 15 percent of equitable sharing revenues may be used for the costs
associated with drug abuse treatment, drug and crime prevention education,
housing and job skills programs, or other nonprofit community-based
programs or activities. This provision requires that all expenditures be made
by the law enforcement agency and does not allow for the transfer of cash.

      As summarized in Exhibit 2, the Guide to Equitable Sharing for State and
Local Law Enforcement Agencies, dated April 2009 (Equitable Sharing Guide)
outlines categories of allowable and unallowable uses for equitable sharing
funds and property.




                                      2

      EXHIBIT 2: SUMMARY OF ALLOWABLE AND UNALLOWABLE

        USES OF EQUITABLE SHARING FUNDS AND PROPERTY

              ALLOWABLE USES                                     UNALLOWABLE USES
Salaries for new and temporary appointments
                                                     Salaries for existing positions
of law enforcement personnel
Overtime for officers and investigators,
                                                     Uses contrary to the laws of the state or local
payments to informants, reward money, and
                                                     jurisdiction
the purchase of evidence
Training of officers, investigators, prosecutors,
                                                     Use of shared vehicles, forfeited property, or
and law enforcement support personnel
                                                     items purchased with shared funds by non-law
necessary to perform official law enforcement
                                                     enforcement agency personnel
duties
Purchase, lease, construction, expansion,            Capital improvements on leased property or
improvement, or operation of law enforcement         space, and capital expenditures without AFMLS
or detention facilities                              approval
Support of eligible community-based programs
through direct purchase of supplies, equipment       Cash transfers to community-based programs
and/or services
Law enforcement equipment, travel and                Use of federally forfeited luxury vehicles for
transportation costs, awards and memorials,          other than undercover law enforcement
and language assistance services                     purposes
Drug and Gang Education and Awareness                Education-related costs such as scholarships,
Programs                                             financial aid, and non-law enforcement classes
Accounting, auditing, and tracking of
expenditures for federally shared cash,              Extravagant expenditures and non-official
proceeds, and tangible property (excludes            government use of shared assets
salaries for agency personnel)
Transfers to other law enforcement agencies,
                                                     Purchase of food and beverages, unless part of
matching contributions or shares to law
                                                     a conference package policy or if state or local
enforcement related federal grant programs,
                                                     law or rules permit officers to be reimbursed
and pro rata funding for costs supporting
                                                     for such expenses
multi-agency items or facilities
Source:   Equitable Sharing Guide

The Oklahoma Highway Patrol

      OHP is a state law enforcement agency within the Oklahoma Department
of Public Safety and has almost 800 troopers statewide. OHP is organized into
several troops and sections that are responsible for traffic enforcement,
vehicle crash enforcement along the state’s highways and turnpikes, and for
providing specialized law enforcement activities such as bomb squad disposal
and special operations. OHP headquarters is located in Oklahoma City,
Oklahoma. OHP’s law enforcement budgets were $104.8 million in FY 2010,
$99.9 million in FY 2011, and $104.1 million in FY 2012.

      OHP’s equitable sharing efforts are administered by its Special
Operations Troop (Troop SO), and equitable sharing revenues are generally
used for Troop SO costs. Troop SO has an Asset Forfeiture Coordinator whose
primary responsibilities include maintaining DOJ equitable sharing accounting
records; ensuring that purchase requisitions are for permissible goods and



                                                    3

services, in accordance with applicable guidance; completing the necessary
AFMLS forms; and tracking its requests for federally forfeited assets.

OIG Audit Approach

      We tested compliance with what we considered to be the most important
conditions of the DOJ Equitable Sharing Program. Unless otherwise stated,
we applied the Equitable Sharing Guide as our primary criteria. The Equitable
Sharing Guide identifies the accounting procedures and requirements for
tracking equitable sharing monies and tangible property, establishes reporting
and audit requirements, and defines the permissible uses of equitable sharing
resources.

      To conduct the audit, we tested the OHP’s compliance with the following
three primary aspects of the DOJ Equitable Sharing Program:

  1. Accounting for Equitable Sharing Resources to determine whether
     standard accounting procedures were used to track equitable sharing
     assets.

  2. Equitable Sharing Agreement and Certification Forms to
     determine if these documents were complete, accurate, and filed in a
     timely manner.

  3. Use of Equitable Sharing Resources to determine if equitable

     sharing funds were spent for permissible uses.


      We also performed tests to determine whether the OHP used its
equitable sharing funds to supplement rather than supplant local funding.
See Appendix II for more information on the audit objectives, scope and
methodology.




                                      4

              FINDINGS AND RECOMMENDATIONS

     OHP complied with equitable sharing guidelines with respect to
     maintaining and updating a DAG-71 log to track its equitable
     sharing requests and receipts, submitting its most recent
     Equitable Sharing Agreement and Certification form on time, and
     adhering to non-supplanting requirements. However, the OHP’s
     accounting records did not adequately identify the personnel
     whose salaries, benefits and other payroll transactions were being
     paid with equitable sharing funds, and combined the salaries and
     benefits of two OHP employees. In addition, the OHP
     commingled DOJ and Department of Treasury (Treasury) asset
     forfeiture revenues and expenditures; and incorrectly credited all
     combined earned interest income to the DOJ Asset Forfeiture
     Program, thereby overstating its actual share. OHP also did not
     obtain AFMLS approval to remodel a building and had not
     established internal controls to track tangible property purchased
     with equitable sharing funds, which would enable the OHP to
     reasonably ensure that tangible property continued to be used for
     law enforcement purposes.

     This audit also identified $1,697,433 in unallowable questioned
     costs and $210,216 in unsupported questioned costs related to
     expenditures and the use of seized tangible property including:
     (1) construction and renovation costs; (2) salaries, benefits and
     overtime paid to OHP non-law enforcement personnel; (3) fees
     paid to contractors; (4) fuel and other vehicle expenditures;
     (5) pickup trucks used by Oklahoma Department of Public Safety
     (DPS) non-law enforcement personnel; and (6) use of a seized
     semi-tractor and trailer for non-law enforcement purposes.

Accounting for Equitable Sharing Resources

      The Equitable Sharing Guide requires that participating state and local
law enforcement agencies implement standard accounting procedures to track
equitable sharing monies and property. Additionally, DOJ equitable sharing
funds must be accounted for separately from any other funds. To determine
whether the OHP’s accounting procedures adequately tracked equitable
sharing monies and property, and separately accounted for DOJ equitable
sharing funds, we reviewed the OHP’s accounting records, Equitable Sharing




                                     5

Agreement and Certification forms, accounting for tangible property, and
tracking of equitable sharing requests and receipts. 5
Accounting Records

       OHP uses PeopleSoft software to account for its DOJ equitable sharing
funds and maintains an expenditure ledger comprised of: (1) non-payroll
transactions, such as for supplies, equipment, training, and contractor costs;
(2) salaries, fringe benefits and other payroll costs; and (3) overtime. We
found that the OHP’s expenditure ledger lacked sufficient detail for its salaries,
fringe benefits, and other payroll transactions. These transactions did not
contain a field identifying the personnel being charged or the payment dates,
and the salaries and benefits of two OHP employees were combined so we
could not readily identify which costs belonged to each individual. OHP
officials explained that this was due to a limitation of the financial system
query and that allocating these costs to each individual would require
reconciliation between the expenditure ledger and a separate summary report
containing each employee’s names and total fiscal year charges. We
performed this reconciliation and were able to allocate the payroll costs to each
employee; however, we do not consider this methodology a substitute for
maintaining a detailed payroll ledger containing payroll costs sorted by
individual employee, and including pay periods and payment dates. 6 We
recommend that the Criminal Division require the OHP maintain a detailed
payroll ledger, similar to its non-payroll ledger that provides information on
individual payroll transactions and includes the OHP employee’s name or
identification number, and pay period or payment date.

Commingling of Federal Forfeiture Funds

      According to the Equitable Sharing Guide, a state or local participating
law enforcement agency must not commingle DOJ equitable sharing funds.
OHP’s Equitable Sharing Agreement and Annual Certification forms for
FYs 2010 through 2012 indicated that the OHP spent $7,764,060 and
$543,734 in DOJ and Treasury equitable sharing funds, respectively.
However, our audit determined that the OHP commingled the transactions for
DOJ and Treasury equitable sharing funds in the same expenditure ledger and
did not have any internal controls, such as fields or accounting codes to

       5
          The Equitable Sharing Agreement and Certification form contains a section that
summarizes a participating agency’s equitable sharing activity, including the amount of funds
received, shared monies spent across several expenditure categories, and interest income
accrued.
       6
          During the reconciliation, the salaries, fringe benefits and other payroll transactions
(expenditure ledger) did not match the separate summary report because the expenditure
ledger included flexible benefits, worker’s compensation, and other payroll expenditures that
were not included in the separate summary report. Additionally, the summary report
included overtime costs that were not included in the expenditure ledger.


                                               6

distinguish the funding source. OHP officials informed us that the Treasury
funds had typically been used to purchase vehicles, which are required to be
itemized in the Annual Certification Reports. Because of this itemization, we
were able to identify and separate out nearly all of the transactions related to
Treasury funds. Regardless, commingling of equitable sharing fund
expenditures is unallowable and complicates the audit trail by not
distinguishing what transactions were charged to the DOJ fund.

      In addition, the OHP also commingled its DOJ and Treasury equitable
sharing revenues in the same interest-bearing fund managed by the Oklahoma
State Treasurer’s Office. This fund accrues monthly interest based on the
average daily balance of the account for each month. This does not comply
with the Equitable Sharing Guide which states that participating state and local
agencies must establish a separate revenue account through the agency’s
finance department for the proceeds from the DOJ Equitable Sharing Program.
No other funds may be included in this account or with this accounting code.
Because the fund contained both DOJ and Treasury equitable sharing
revenues, the OHP should have allocated the interest income earned between
DOJ and Treasury. However, no such allocation occurred and from FYs 2010
through 2012, the OHP incorrectly allocated all $395,239 of the interest
income to the DOJ Asset Forfeiture Program, thereby overstating DOJ’s share
of the accrued equitable sharing interest income.

      As a result of these findings, we recommend that the Criminal Division
require that the OHP maintain separate accounting records for its DOJ
equitable sharing funds; establish a separate revenue account through OHP’s
finance department for its DOJ equitable sharing revenues; and require that
the OHP reallocates its $395,239 in equitable sharing interest income earned
in FYs 2010 through 2012, between the DOJ and Treasury equitable sharing
funds and submit amended Certification forms with the correct interest
income.

Accounting for Tangible Property

      According to the Equitable Sharing Guide, law enforcement agencies
must implement standard accounting procedures and internal controls to track
equitable sharing tangible property, which can only be used for law
enforcement purposes. Such internal controls typically include an inventory
of equitable sharing tangible property that provides law enforcement agencies
the ability to identify and locate the tangible property and ensure it is being
used and continues to be used for law enforcement purposes.

      We determined that the OHP maintained an inventory of seized tangible
property, but not tangible property that had been purchased with equitable
sharing funds. During our review of the OHP’s expenditure ledgers, we
selected seven transactions involving vehicles and pieces of equipment that


                                       7

had been purchased and should have been tracked. OHP was able to locate
these items through its general inventory records, but those records did not
indicate that the tangible property had been purchased with equitable sharing
funds. Because the OHP did not have internal controls to track tangible
property purchased with equitable sharing funds, it could not reasonably
ensure that the tangible property continued to be used for law enforcement
purposes. In fact, as we will discuss later, we determined that two pickup
trucks were being used by non-law enforcement personnel. Additionally,
although outside the scope of our audit, we found that one of the vehicles
purchased with Treasury equitable funds was not being used for law
enforcement purposes. 7 We recommend that the Criminal Division ensure
that the OHP maintains an inventory that easily identifies all equitable sharing
property, both seized and purchased.

DAG-71s

       After the seizure in a joint investigation or in an adoption case, a
participating state or local law enforcement agency may request a share of the
property by submitting a Form DAG-71, Application for Transfer of Federally
Forfeited Property, to the federal seizing agency. According to the Equitable
Sharing Guide, state or local participating law enforcement agencies must
maintain a log and copies of all Form DAG-71s. The log should contain the
seizure type, amount, share amount requested, amount received, date
received, and should be updated whenever an E-Share notification is
received. 8 We determined that the OHP kept copies of its Form DAG-71s and
properly maintained and updated a log to track its equitable sharing requests
and receipts.

Equitable Sharing Agreement and Certification Forms

       AFMLS requires that any state or local law enforcement agency that
receives forfeited cash, property, or proceeds because of a federal forfeiture
submit an Equitable Sharing Agreement and Certification form. The
submission of this form is a prerequisite for the approval of any equitable
sharing request and noncompliance may result in the denial of the agency’s
sharing request. The form has two sections – the agreement and the
certification. The agreement portion of the form must be signed by both the
head of the law enforcement agency and a designated official of the local
governing body. By signing and submitting the agreement, the signatories
agree to be bound by the statutes and guidelines that regulate the DOJ

       7
          A 2006 Jeep Grand Cherokee was in the possession of a Project Manager within DPS’
Electronic Services section.
       8
          E-Share is the United States Marshals Service program used to make equitable
sharing payments to federal, state, and local law enforcement agencies through electronic
funds transfer (EFT).


                                             8

Equitable Sharing Program. The certification section of the form lists the
beginning and end of year fund balance; equitable sharing funds received; and
a summary of funds spent, organized across several spending categories.

       We tested compliance with the Equitable Sharing Agreement and
Certification form requirements to determine if the OHP’s forms for FYs 2010
through 2012 were accurate, completed and submitted in a timely manner.
We noted that the agreement portions of the forms were signed by the
appropriate officials. To assess the accuracy and completeness, we verified
that the total receipts and expenditures reported on the forms reconciled to
the OHP’s accounting records, CATS Disbursement Reports, and E-Share logs.
Despite the fact that the DOJ and Treasury equitable funds were commingled
in the same expenditure ledger, as stated previously, we were able to identify
and separate out nearly all of the transactions related to Treasury funds.
Based on that analysis, we determined that the OHP’s equitable sharing
revenues and expenditures reported on its certification forms were supported
by its accounting records, with only small and immaterial differences.
However, as previously described, from FYs 2010 through 2012, the OHP
incorrectly allocated all of its commingled interest income to the DOJ asset
forfeiture program.

       We also reviewed whether the OHP’s Equitable Sharing Agreement and
Certification forms were submitted on time. The Equitable Sharing Guide
states that participating law enforcement agencies must submit the agreement
and certification form within 60 days of the end of the applicable fiscal year.
We found that the OHP submitted its FY 2010 and FY 2012 certification forms
on time, but submitted the FY 2011 certification form 23 days late. Since the
most recent certification form was submitted timely, we are not making a
recommendation related to this issue.

Use of Equitable Sharing Resources

       Generally, the Equitable Sharing Guide requires that equitable sharing
funds received by state and local agencies be used for law enforcement
purposes. However, under certain circumstances, up to 15 percent of the
total of shared monies received by an agency in the last 2 fiscal years may be
used for the costs associated with nonprofit community-based programs or
activities, such as drug abuse treatment, drug and crime prevention education,
and housing and job skills programs. Law enforcement agencies can also
transfer cash to another law enforcement agency.

      To ensure that the OHP complied with the Equitable Sharing Guide, we
assessed the OHP’s use of equitable sharing funds and equitable sharing
property. Our analysis revealed that the OHP had unallowable costs totaling
$1,697,433 and unsupported costs totaling $210,216, as described in the
following two sections.


                                      9

Use of Equitable Sharing Funds

      OHP expended DOJ equitable sharing funds totaling $7,763,489 during
FYs 2010 through 2012 for payroll, overtime, and non-payroll expenditures for
communications equipment and computers, salaries and overtime, vehicles,
construction, travel, and miscellaneous expenses. To assess whether
expenditures were recorded accurately and were allowable under equitable
sharing guidelines, we sampled 43 expenditures totaling $3,382,902, or
approximately 44 percent of total expenditures during the audit period. The
sample included high-dollar and judgmentally selected expenditures. Our
results are described below.

   •	 Construction of a troop headquarters owned by the Oklahoma
      Turnpike Authority (OTA) and licensed to the Oklahoma
      Department of Public Safety (DPS). 9 In June 2007, DPS (licensee)
      entered into an exclusive long term restricted occupancy license with
      OTA (licensor) that granted the OHP the occupancy and use of a soon to
      be constructed troop headquarters that would house OHP turnpike and
      non-turnpike troops. As part of the agreement, DPS agreed to share
      the costs of construction and in November 2009 the OHP paid $996,088
      in DOJ equitable sharing funds to OTA for what was characterized in the
      license agreement as an “initial license fee,” but was in substance a
      45 percent share of the construction costs. These construction costs
      are unallowable without AFMLS approval; according to the Equitable
      Sharing Guide, "capital improvements should not be made on leased
      property or space since the law enforcement agency will not benefit from
      the improvements upon termination of the lease." This rule is just as
      applicable to licensed property or space, because similar to the
      termination of a lease, when the license is terminated, the OHP would no
      longer benefit from the building that equitable sharing funds were used
      to construct because the OHP has no ownership interest in the premises.
      Therefore, absent any documentation of AFMLS approval, we question
      all $996,088 of unallowable construction costs.




      9
          The Oklahoma Department of Public Safety (which contains the OHP) contracts with
the Oklahoma Turnpike Authority to ensure that Oklahoma's turnpikes are as safe as possible
for patrons of the turnpike system and that all turnpike Highway Patrol related costs are
reimbursed to the Oklahoma Department of Public Safety.



                                            10

•	 Renovation costs of a DPS facility shared by both OHP and
   non-law enforcement sections. The Equitable Sharing Guide lists
   as a permissible use, "law enforcement and detention facilities,"
   referring to the costs associated with the purchase, lease, construction,
   expansion, improvement, or operation of law enforcement or detention
   facilities used or managed by the recipient agency. It also states that
   approval from AFMLS is required prior to making such capital
   expenditures. In 2012, the OHP paid $20,862 in equitable sharing
   funds for engineering services related to the renovation of DPS’s “South
   Licensing Facility.” OHP’s Asset Forfeiture Coordinator said the building
   was to be shared by the OHP and other DPS entities, but instead of the
   OHP paying a pro rata share; it had paid the entire cost of the
   engineering services. We requested further information on this
   arrangement on several occasions, but the OHP did not respond.
   Furthermore, the OHP had not obtained AFMLS approval for its
   renovations, as required by the Equitable Sharing Guide. As a result,
   this renovation charge is unallowable and we are questioning all
   $20,862, and we recommend that the Criminal Division ensure that the
   OHP establish written procedures to request AFMLS approval prior to
   making capital expenditures with equitable sharing funds.

•	 Fees paid to contractors performing functions unrelated to the
   DOJ Equitable Sharing Program. While the use of equitable sharing
   funds to pay salaries is generally unallowable, the Equitable Sharing
   Guide states that permissible uses include the costs associated with the
   accounting, auditing and tracking of expenditures for federally shared
   cash, proceeds, and tangible property - such as paying the fees
   associated with the contracting of a bookkeeper. From FYs 2010
   through 2012, the OHP paid $143,903 to contractors performing
   administrative tasks and web design, as well as data entry functions for
   OHP’s Special Operations Troop. Because these functions were
   unrelated to the DOJ Equitable Sharing Program, we are questioning all
   $143,903 in unallowable contractor fees.

•	 Salaries, benefits and overtime costs for non-law enforcement
   OHP personnel. In order to prevent the appearance that one’s salary
   is contingent upon and potentially motivated by money that is seized;
   participating agencies are not permitted to use equitable sharing funds
   to pay the salaries and benefits of existing positions, except in limited
   circumstances involving law enforcement officers. From FYs 2010
   through 2012, the OHP paid a combination of salaries, benefits, and
   overtime totaling $382,623 to its Asset Forfeiture Coordinator, an
   Administrative Programs Officer, and a Communications Officer. These
   were all non-law enforcement personnel and as a result we are
   questioning all $382,623 in unallowable salaries, benefits, and overtime.



                                   11

   •	 Fuel and other vehicle expenditures for DPS sections not
      primarily responsible for law enforcement activities. According
      to the Equitable Sharing Guide, permissible costs include those
      associated with the purchase, lease, maintenance, or operation of law
      enforcement equipment for use by law enforcement personnel, which
      includes vehicles (e.g. patrol cars and surveillance vehicles). OHP used
      DOJ equitable sharing funds to pay for the fuel and other vehicle
      expenditures of several sections and subdivisions across the DPS, many
      of which were primarily comprised of non-law enforcement personnel.
      We reviewed five consolidated invoices totaling approximately $1.37
      million and found that some of the costs were for OHP Troops’ fuel
      expenditures; however, the OHP had also paid $116,512 in unallowable
      fuel expenditures for DPS components such as Property Management,
      Legal, Driver Improvement, Administration, Wrecker Licensing, Records
      Management, and several other components. Furthermore, in three
      instances the OHP used equitable sharing funds to pay fuel and other
      vehicle related expenditures totaling $210,216 but there was not enough
      information to identify the DPS sections and subdivisions for which the
      purchases were made. 10 We brought this to the OHP’s attention and on
      several occasions requested further information to identify the sections
      and subdivisions for which these costs were incurred, but the OHP did
      not respond. As a result, we consider this $210,216 unsupported.
      Overall, we are questioning $116,512 in unallowable fuel expenditures
      and $210,216 in unsupported fuel and other vehicle expenditures.

   •	 Purchased vehicles used by non-law enforcement personnel.
      The Equitable Sharing Guide requires that law enforcement equipment
      purchased with equitable sharing funds be used by law enforcement
      personnel only. In August 2009, the OHP purchased two Ford F-150
      pickup trucks for $39,442 for its Special Operations Troop. However, in
      March 2012 the two pickup trucks were transferred to a DPS Field
      Services Technician and a DPS Senior Radio Technician, respectively.
      OHP officials stated that the transferred vehicles were used to maintain
      radio towers throughout the state. Although these personnel provided
      support services to the OHP, they are not law enforcement personnel,
      nor are they employed by the OHP, and should therefore not be using the
      vehicles purchased with asset forfeiture funds. Furthermore, the
      Equitable Sharing Guide states that the law enforcement agency may
      transfer tangible property to another governmental department or
      agency to support drug abuse treatment, drug and crime prevention and


       10	
           OHP had three transactions for fuel and other vehicle expenses totaling $689,771 of
which $210,216 was paid with equitable sharing funds. The associated invoices contained
approximately 200 line items, organized by DPS section or subdivision. However, there was
no indication of which DPS sections or subdivisions had incurred the fuel and other vehicle
expenses that were paid with equitable sharing funds.


                                             12

       education, housing, and job skills programs, or other community-based
       programs. However, the OHP did not transfer the property to DPS for
       any of these purposes. As a result, we are questioning the $24,899
       current market value of the pickup trucks as unallowable. 11

Use of Equitable Sharing Property

      The Equitable Sharing Guide requires that any forfeited tangible
property transferred to a state or local agency for official use must be used for
law enforcement purposes only. Further, vehicles and other tangible property
transferred for official law enforcement use must be used accordingly for at
least 2 years. However, if the property becomes unsuitable for such stated
purposes before the end of the 2-year period, it may be sold with approval
from AFMLS and the proceeds deposited in the agency’s DOJ equitable sharing
revenue account. During FYs 2009 through 2010, the OHP received the
following three forfeited assets.

   •   2004 Ford F-350 Truck

   •   1998 Freightliner Semi-Tractor

   •   1995 Semi Utility Trailer

        We physically located all 3 assets and confirmed that the 2004 Ford
F-350 Truck was being used for allowable law enforcement purposes.
However, the Freightliner semi-tractor and utility trailer were being used by
the Oklahoma Department of Public Safety for commercial driver’s license
skills testing, a non-law enforcement use and therefore, unallowable purpose.
A senior OHP official noted that the OHP had used the semi-tractor and trailer
to set up a road block on one occasion. Regardless of the single instance of
law enforcement use of the assets, the Equitable Sharing Guide states that any
forfeited tangible property (other than real estate) transferred to a state or
local agency for official use must be used for law enforcement purposes only.
As a result, we questioned $12,546, which represents the appraised value of
the semi-tractor and trailer and investigative agency administrative fees, as
displayed in Exhibit 2.




       11
            We were unable to determine the market value of the vehicles as of the time of the
transfer in March 2012. As a result, we based the unallowable amount on the private party
market value using the Edmunds.com used car appraisal feature, and based on actual mileage,
no optional equipment, and a vehicle condition of “average.”


                                             13

        EXHIBIT 2: QUESTIONED COSTS FOR UNALLOWABLE

                     USE OF FORFEITED PROPERTY

                                APPRAISED
                                  VALUE 12      INVESTIGATIVE
 FORFEITED PROPERTY           (AS OF JUNE 2010)  AGENCY FEES  TOTAL
 1998 FREIGHTLINER
 SEMI-TRACTOR                     $7,000            $198      $7,198
 1995 SEMI UTILITY TRAILER        $5,150            $198      $5,348
 QUESTIONED COSTS                         $12,150              $396           $12,546
Source:     OHP & AFMLS

Supplanting

      Pursuant to the Equitable Sharing Guide, equitable sharing revenues
must be used to increase or supplement the resources of the recipient agency
and prohibits the use of shared resources to replace or supplant the
appropriated resources of the recipient. To test whether equitable sharing
funds were used to supplement rather than supplant local funding, we
reviewed the OHP’s law enforcement budgets for FYs 2010 through 2012 in
order to identify any decreases in local dollars budgeted. In addition, we
sampled expenditures from FYs 2010 through 2012.

      During our review of the OHP’s budget documents, we found that the
OHP’s law enforcement budget decreased by $4,896,713 from FY 2010 to
FY 2011. However, through our review of the OHP’s budget documents we
determined this was caused due to a decrease in federal grants funds.
Further, our testing of sampled expenditure transactions did not reveal any
evidence of supplanting. Based on our analysis, we did not find any evidence
that would suggest that equitable sharing funds were used to supplant local
funding.

Recommendations

We recommend that the Criminal Division:

1.	    Ensure that the OHP maintains a detailed payroll ledger that provides
       information on individual payroll transactions and includes the OHP
       employee’s name or identification number, and pay period or payment
       date.

2.	    Ensure that the OHP maintains separate accounting records for its DOJ
       equitable sharing funds.

       12
          The Appraised Value includes the 20 percent federal share that the OHP paid to the
United States Marshals Service in 2010.



                                            14

3.	   Require that the OHP reallocates its $395,239 in equitable sharing
      interest income earned in FYs 2010 through 2012, between the DOJ and
      Treasury equitable sharing funds and submit amended Certification
      forms with the correct interest income.

4.	   Ensure that the OHP establishes a separate revenue account through the
      agency’s finance department for its DOJ equitable sharing revenues.

5.	   Ensure that the OHP maintains an inventory that easily identifies all
      tangible equitable sharing property, both seized and purchased.

6.	   Ensure that the OHP establish written procedures to request AFMLS
      approval prior to making capital expenditures with equitable sharing
      funds.

7.	   Remedy $1,697,433 in questioned costs related to unallowable equitable
      sharing expenditures and unallowable use of equitable sharing property.

8.	   Remedy $210,216 in unsupported costs related to fuel and other vehicle
      related expenditures for which the OHP could not produce adequate
      documentation.




                                      15

                  STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the normal
course of performing their assigned functions, to timely prevent or detect:
(1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations of
laws and regulations. Our evaluation of the Oklahoma Highway Patrol’s
(OHP) internal controls was not made for the purpose of providing assurance
on its internal control structure as a whole. OHP management is responsible
for the establishment and maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report, we
identified deficiencies in the OHP’s internal controls that are significant within
the context of the audit objectives and based upon the audit work performed
that we believe adversely affects the OHP’s ability to track tangible property
purchased with equitable sharing funds and account for equitable sharing
resources. Although the OHP had an inventory of seized tangible property, it
did not maintain an inventory of tangible property that had been purchased
with equitable sharing funds. As a result, the OHP could not reasonably
ensure that its tangible property continued to be used for law enforcement
purposes. In addition, the OHP unallowably commingled Department of
Justice (DOJ) and Department of Treasury asset forfeiture revenues and
expenditures and incorrectly credited all combined earned interest income to
the DOJ Asset Forfeiture Program, thereby overstating its actual share.

      Because we are not expressing an opinion on the OHP’s internal control
structure as a whole, this statement is intended solely for the information and
use of the OHP. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                       16

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
Oklahoma Highway Patrol’s (OHP) management complied with federal laws
and regulations, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. OHP’s management is responsible
for ensuring compliance with applicable federal laws and regulations. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:

     •	 A Guide to Equitable Sharing for State and Local Law Enforcement
        Agencies (Equitable Sharing Guide), dated April 2009 and

     •	 OMB Circular No. A-133, Audits of States, Local Governments and
        Non-Profit Organizations, dated June 26, 2007.

      Our audit included examining, on a test basis, the OHP’s compliance with
the aforementioned laws and regulations that could have a material effect on
the OHP’s operations, through interviewing OHP officials, obtaining OHP
documentation, analyzing OHP data, and assessing OHP internal controls.

      As noted in the Findings and Recommendations section of this report, we
found that the OHP did not always comply with the Equitable Sharing Guide
with respect to accounting for equitable sharing resources, requesting AFMLS
approval prior to making a capital expenditure, and using equitable sharing
funds and seized tangible property for allowable purposes.




                                     17

                                                                           APPENDIX I

            SCHEDULE OF DOLLAR-RELATED FINDINGS

      QUESTIONED COSTS: 13                              AMOUNT          PAGE(S)
        Unallowable construction costs                 $996,088          10
        Unallowable renovation costs                   $20,862           11
        Unallowable contractor fees                    $143,903          11
        Unallowable salaries, benefits, and
        overtime payments to three non-law
        enforcement OHP personnel14                    $382,623          11

        Unallowable fuel expenditures                  $116,512          12
        Unallowable use of two purchased
        2010 Ford F-150 pickup trucks                  $24,899           12
        Unallowable use of a seized
        1998 Freightliner Semi-Tractor                 $7,198            13
        Unallowable use of a seized
        1995 Semi-Utility Trailer                      $5,348            13
        Total Unallowable                              $1,697,433
        Unsupported fuel and other vehicle
        expenditures                                   $210,216          12
        Total Unsupported                              $210,216
      TOTAL DOLLAR-RELATED
      FINDINGS:                                        $1,907,649




       13
           Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
       14
          The three non-law enforcement personnel were the Asset Forfeiture Coordinator,
an Administrative Programs Officer, and a Communications Officer.



                                            18
                                                                APPENDIX II

           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      The objectives of the audit were to assess whether the Oklahoma
Highway Patrol (OHP) accounted for equitable sharing funds properly and used
such revenues for allowable purposes as defined by applicable guidelines. We
tested compliance with what we considered were the most important
conditions of the Department of Justice’s (DOJ) Equitable Sharing Program.
We reviewed laws, regulations, and guidelines governing the accounting for
and use of DOJ equitable sharing receipts, including the Guide to Equitable
Sharing for State and Local Law Enforcement Agencies, dated April 2009.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the OHP during its fiscal years 2010 through 2012,
covering the period from July 1, 2009, through June 30, 2012. We performed
audit work at OHP headquarters located in Oklahoma City, Oklahoma; we
interviewed OHP officials and examined records of federal asset forfeiture
revenues and expenditures. The U.S. Department of the Treasury
administers a similar equitable sharing program, for which the OHP
participated. However, our audit reviewed equitable sharing revenues
received through only the DOJ Equitable Sharing Program.

      To accomplish the objectives of the audit, we interviewed OHP officials
and examined OHP accounting records. We relied on data contained in the
DOJ Consolidated Asset Tracking System (CATS) to determine the amount of
equitably shared revenues and property awarded to the OHP during the audit
period. We did not establish the reliability of the data contained in the CATS
system as a whole. However, when the data we relied upon is viewed in
context with other available evidence, we believe the opinions, conclusions,
and recommendations included in this report are valid.

      Our audit specifically evaluated OHP compliance with three essential
equitable sharing guidelines: (1) accounting for equitable sharing resources,
(2) Equitable Sharing Agreement and Certification Forms, and (3) use of
equitable sharing resources. In planning and performing our audit, we



                                      19

considered internal controls established and used by the OHP and the
Oklahoma Department of Public Safety (DPS) over DOJ equitable sharing
receipts to accomplish our audit objectives. However, we did not assess the
reliability or internal controls of the OHP’s or the DPS’ financial management
systems, or otherwise assess their internal controls and compliance with laws
and regulations for the State of Oklahoma as a whole.

      Our audit included an evaluation of the Single Audit Reports for the State
of Oklahoma for FYs 2010 and 2011, which included the OHP under the
umbrella of the DPS. 15 The Single Audit Reports were prepared under the
provisions of Office of Management and Budget Circular A-133. We reviewed
the independent auditor’s assessments, which disclosed no control
weaknesses or significant noncompliance issues specifically related to the DPS’
or OHP’s management or administration of equitable sharing funds or DOJ
grant funds.




       15
         At the time of our audit fieldwork, the 2012 Single Audit Report for the State of
Oklahoma was not available.


                                            20

                                                                                         APPENDIX III

              CRIMINAL DIVISION RESPONSE TO
                    THE DRAFT REPORT

                                                    u.s. Department of Justice
                                                    Criminal Division



                                                    Washington. D,C. 20530




M E MORANl)lJM

TO:           David Sheeren
              Regional Audit Manager
              Denver Regional Aud it Office
              Offiee oftbe Inspector General (OIG)

FROM:         Gene Patton, Assistant Deputy Ch­
              Asset Forfeiture and Money l,a_Oi;im.:J;. ction (A FMLS)
                                                      e

SUBJECT:      Draft Audit Report for the Oklahoma Highway Patrol's Equiwble Sharing
              Program Activities

        In a memorandum to Mythili Raman, dated June 25, 2013,,your office summarized the
status of the above referenced report and detailed actions necessary for final closure of the
outstanding audit report recommendations. "lbc fo llowing is a list o1'tlle audit report
recommendations pertaining to the Oklahoma Highway Patrol's (OHP) equitablesharing
program activity:

        Recommendation s:

              J. Ensure that the om' maintains a detailed payroll ledger that provides
                 information on individual payroll transactions and includes the OHP
                 cmployec's name or identification number, and pay pe riod or payment
                 date.

              2. Ensure that the OHP maintains scpa.-ate accounting records for its DO"
                 equitllble sharing funds.

              3. Require that the OH_ reallocates its $395,239 in equitable sharing
                                       P
                 interest income ellrned in fiselll yellrs 2010 through 2U12, between tbe
                 DOJ and T reasury eq uitable Sharing fund s a nd submit amended
                 Certification form s with the correct interest ineoOl e.

              4. Ensure that the OHP establishes a separate revenue account through the
                 agcncy's finance department for its DOJ equitablc ~ barin g r evenues.




                                              21

               5. Ensure that the OHP maintains an inventory that easily identifies a ll
                  tangible equitable sharing property. both seized and purchased.

               6. Ensure that the OHP estahlish written procedures to reques t AFMLS
                  approval prior to making capital expenditures with equitable sharing
                  funds .

               7. Remedy $1 .697,433 in questioned costs related to unallowable equitable
                  sharin g expenditure.s lind ullllllownble use of equitublc sharing property.

               8. Remedy $210,216 ill uns upported costs related to fuel and other vehicle
                   related expenditures for which OHP could not produce adcqutatc


         The Asset Forfeiture and Money Laundering Section (AFMLS) does not have sufficient
in ro rmation at this time to detcnninc whether it fully concurs with recommendation 6 and a part
of recommendation 7.

        AFMLS concurs with all other find ings and will request that the OTJP provid e further
infor·mation and implement the recommended policies and proccdures and provide
documentation vcri fying that the corrective actions have been taken.


cc:   Louise M. Duhamel, Ph . D.
      Assistant Director
      Audit Liaison Group
      Justice Manageme nt Div ision

      Denise T urcotte
      Audit Liaison
      Criminal Division




                                                2




                                               22

                                                                                                 APPENDIX IV

                     OKLAHOMA HIGHWAY PATROL
                    RESPONSE TO THE DRAFT REPORT




 MICHA.:I . C. T II OMPSON                                                              MAK¥ "ALUI"




                                           •
 COMM Is,.o;; IONF:H                                                                     GOV";RNOH




                                         ~TATE   O.·OKLA II OMA
                                     DEPARTMU~ Of
                                              'T      PUBLIC SAF"ETV




July 15,20l3



U.S. Department of Justice
Office of Inspector General
David Sheeren, Regional Audit Manager
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, CO 80203

Dear Mr. Sheeren,

Please fin d below and the Oklahoma Highway Patrol's responses to the Office ofInspeetor
General Draft Audit Report recommendations.


I.       Ensure tbat OHP maintains a detailed payroll ledger that provides inrormation on
         individual payroll transactions and includes the OHP employee's name or
         identification number, and pay period or payment date.

         We will ensure that all payroll being paid from the equitable shari ng fund is now being
         recorded in a payroll ledger that details the employee and the month of payment.

2.       Ensure that OAP nlaintains separate accounting records for its DOJ equitable
         sharing funds.

         We w ill ensure that a separate set of records for purchases and expenditures will be
         maintained by the Asset Forreiture Coordinator.

3.      Require OHP to reallocate $395,239 in interest income so that it is reallocated
        between the DOJ and Treasury funds and submit amended Certification forms with
        the corred inte rest income.

        We agree and once a new fund has been establ ished for the Treasury sharing funds the
        interest will be reallocated.




                                                  23

4.   Ensure OHP esta blishes a separate revenue account through the agency's finance
     depa rtment for its DOJ equitable sbaring revenues.

     We agree and a new fund will be established fo r the Treasury equitable sharing funds
     received once the Oklahoma Legislature reconvenes.

5.   Ensure OHP maintains an inventory that easily identifies all hmgible equitable
     sharing property, both seized and purchased.

     We will ensure that an inventory log will be created and it will be maintained to list all
     property purchased and seized.

6.   Ensure that OHP establish written procedures to request AFMLS a pprova l prior to
     making capital expenditures with equitable sharing funds.

     We will ensure that procedures are established for seeking prior approval on any future
     capital expenditure that uses equitable sharing funds.

7.   Rcmedy $1,697,433 in questioned costs re lated to una llowable equita ble sha ring
     expenditures and unallowable use of equitable sharing propcrty.

     •      Unallowable construction costs of 5996,088

            DPS respectfully requests an exemption from the prohibition of using asset
            forfeiture funds as construction costs fo r a building affixed to leased land for the
            following reasons.

            The critical reasoning set out in the audit report j ustifying the refusal to allow the
            usc of asset forfeiture monies for construction costs on leased property is:

            "These construction costs are unallowable; according to the Equitable Sharing
            Guide, 'capital improvements should not be made on leased property or space
            since the law enforcement agency will not benefit from the improvements upon
            termination of the lease'."

           ( I)      In §4 oflhe license [lease], onc of the reasons for termination is the license
            terminates after the expiration of the full 50 years period of the license. There the
            Department obtains the use of the building over the full useful life of the building
            [as set out in the agency's GAAP report] prior to termination ofthc liccnsc.
           Therefore. DPS will have then received the full benefit of the building upon
           termination of the license, and there is no further usefu l improvement upon
           termination of the 50 year license [lease]. In fact, the normal useful life of a
           concrete or masonry building is 50 years; however, si nce this building is all metal
           its no nna l useful o r depreciable life is most probably less, not more than the 50
           year usage to which DPS is entitled. Therefore. if the license runs its full 50
           years. there is no furthcr value to this improvement nor benefit to DPS in any
           further occupancy. DPS w ill have then received full benefit from its portion of
           thc building'S construction costs.




                                              24

    (2)      In §17 of the license, another reason justifYing termination is if the
    building bums down and OTAlowner determines it is not feasible to rebuild same.
    In that event and pursuant to §4 of the license, DPS gcts reimbursed on a prorata
    basis for its loss of use of the building over the 50 year life of the license based on
    a fair formula set out in the license [lease]. In other words, ifthc building is
    destroyed in the license's 10th year and OT A elects not to rebuild same, then DPS
    is reimbursed 415ths or 80% of its construction costs, since it has only received
    use of the building over 20% of the life of the license. Hcre, the portion of the
    construction costs which are attributable to DPS's unused period of the 50 year
    lease, are returned to DPS; therefore, DPS is getting the full value of the
    construction costs actually paid based on the full time it used the building.

    (3)     In § 4 of the license, another reason fo r termination is termination by
    agreement of the parties. Such a termination also requires the reimbursement
    from OrA to DPS of the unused portion of the license [[ease] period under the
    same formula as described in item 2 above, and therefore Drs is receiving its full
    value for the construction costs ultimately expended.

    (4) & (5)        This leaves us with the 2 instances mentioned in items 3 & 4 of §4
    of the license [Ieasel which does allow for tenninalion of the license al the request
    of OPS prior to the license's 50 year period and where DPS is not reimbursed by
    OTA for a prorata portion of OPS construction costs as the result ofOPS's loss of
    use of the building. One instance of lease tennination occurs if the so·called
    "non-appropriation clause" is invoked by DPS and the 2nd occurs where OPS
    dctermines to terminate the lease when its continuance is an impediment to the
    function of DPS. Here, we can legally withdraw our right 10 terminate the license
    in the last mentioned instance via contract amendment with orA. In addition,
    since thc non-appropriation clause is used in virtually every multi-year contract by
    a state agency and mrely if ever invokcd, we suggest OTA be approached to see if
    it will agree to an amendment whereby a prorata repayment of construction costs
    will be made to DPS if either this or a modified non-appropriation clause is used.

    It should be noted that this contract between DPS and the Turnpike Authority is
    not a lease of land by DPS from a private company where the [ease can be
    terminated prior to the end of its 50 year term without a pro rata rcpayment of
    construction costs to DPS, absent approval ofDPS. Rather, it is a license [lease]
    between sister state agencies, and the state Turnpike Authority owncr of thc
    property is under a statutory directive to provide for the turnpikes to be "policed
    and operated by such force of police" [69 O.S. § 1716], and OPS is the only
    statewide traffic/police forec authorizcd by statute.

    In conclusion, in all instances of possiblc license termination, DPS is receiving the
    full valuc of its portion of construction costs contributed to the construction of the
    facil ity.


•   Unallowable renovation costs or $20,862.00
    We agree that this costs should havc been a shared costs and we will remedy the
    $20,862 .00




                                     25

      •      Unallowuble contractor fees of $143,903.00.
             We agree that these costs should not have been charged to the equitable sharing
             fund. We will remedy the costs of$143,903.00.

      •      Unallowable salaries, benefits, and overtime payment!> to three non-law
             enforcement OHP personnel ofS382,623.
             We agree that these arc unallowable costs and will remedy the $382,623.00.
             Some of the expenses have been reversed, and we will make sure that the
             remaining charges are as well.

      •      Unallowable fuel expenditures of SI16,512.00.
             We disagree with the total that is unallowable. We fee l that the total of
             unallowable fuel expenses arc $20.002.91, for various DrS divisions. There were
             Troopers assigned to other divisions that were not listed with a Troop heading,
             such as Recruitment, Command Post, Traini ng Center, Wrecker Licensing,
             Homeland Security and Highway Safety.

     •      Unallowable use of two purch!>ed 2010 Ford F-150 pickup trucks of $24,899.
            We disagree that these trucks should not have been charged to the equitable
            sharing fund. We received conflicting information regarding these vehicles. We
            checked to see if the trucks could be as!>igned to the Communication &
            Electronics Services and lL<;ed for maintaining the radio towers. We were asked if
            the functions would be law enforcement related and we answered yes. The
            Communication & Electronics Services division reports to the law enforcement
            side of the agency, directly to the Assistant Commissioner. We will work with
            AfMLS to clarifY the situation .

     •      Unallowable u!>e ofa seized 1998 Freigbtliocr Scm i-Tractor of$7,198.00.

            We agree with the finding of the unallowable use of a seized vehicle. We
            disagrce with the amount that needs to be reimbursed to the equitable sharing
            fund.

     •      Unallowable use of a seized 1995 semi-Utility Trailer of $5,348.00.

            We agree with the finding of the una llowable use ofa seized vehicle. We
            disagree with the amount that needs to be reimbursed to the equitable sharing
            fund. This trailer is in use by OHP for sto rage.


8.   Remedy $210.216 in unsupported costs related to fuel and other vehicle related
     expenditures for which OHP could not produce adequate documentation.

     The documentation for the fuel purchased was given to DIG, but the departments where
     Troopers were assigned was not well defined. Of the $210,216 only $ 15,841.89 is
     actually unallowable expenses and the fund will be reimbursed for these charges.




                                            26

Please let us know ir there are any questions or concerns, or if you request any further
claritication.

Sincerely,      fL
   lito        tn;E 'dfJB >
COLONEL KERRY PETT INGILL
Chief, Oklahoma Highway Patrol




                                                 27

                                                                  APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

             NECESSARY TO RESOLVE THE REPORT


        The Department of Justice, Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the Oklahoma
Highway Patrol (OHP). The Criminal Division’s response is incorporated into
Appendix III and the OHP’s response is incorporated into Appendix IV of this
final report. The Criminal Division concurred with six of the OIG’s eight
recommendations. However, the Criminal Division stated in its response that
it does not have sufficient information to determine whether it fully concurs
with recommendations Nos. 6 and 7. As a result, the report is unresolved.

Recommendation Number:

1.	   Resolved. The Criminal Division concurred with our recommendation
      to ensure that the OHP maintains a detailed payroll ledger that provides
      information on individual payroll transactions and includes the OHP
      employee’s name or identification number, and pay period or payment
      date. In response to our recommendation, on page 23 of this report,
      the OHP stated that it will ensure that all payroll paid from its equitable
      sharing fund is now recorded in a payroll ledger that details the
      employee and the month of payment.

      This recommendation can be closed when we receive evidence that the
      OHP maintains a detailed payroll ledger that provides information on
      individual payroll transactions and includes the OHP employee’s name
      and the month of payment.

2.	   Resolved. The Criminal Division concurred with our recommendation
      to ensure that the OHP maintains separate accounting records for its DOJ
      equitable sharing funds. In response to our recommendation, on
      page 23 of this report, the OHP stated that it will ensure that a separate
      set of records for purchases and expenditures are maintained by the
      Asset Forfeiture Coordinator.

      This recommendation can be closed when we receive evidence that the
      OHP maintains separate accounting records for its DOJ equitable sharing
      funds.




                                       28

3.	   Resolved. The Criminal Division concurred with our recommendation
      to require the OHP to reallocate $395,239 in equitable sharing interest
      income earned in FYs 2010 through 2012, between the DOJ and
      Treasury equitable sharing funds and submit amended Certification
      forms with the correct interest income. In response to our
      recommendation, on page 23 of this report, the OHP stated that the
      interest income will be reallocated once a new fund is established for
      Treasury equitable sharing funds.

      This recommendation can be closed when we receive evidence that the
      OHP reallocated the $395,239 in equitable sharing interest income
      earned in FYs 2010 through 2012, between the DOJ and Treasury
      equitable sharing funds and submitted amended Certification forms with
      the correct interest income.

4.	   Resolved. The Criminal Division concurred with our recommendation
      to ensure the OHP establishes a separate revenue account through the
      agency’s finance department for its DOJ equitable sharing revenues. In
      response to our recommendation, on page 24 of this report, the OHP
      stated that a new fund for Treasury equitable sharing revenues will be
      established once the Oklahoma Legislature reconvenes.

      This recommendation can be closed when we receive evidence that the
      OHP established a separate revenue account through the agency’s
      finance department for its DOJ equitable sharing revenues.

5.	   Resolved. The Criminal Division concurred with our recommendation
      to ensure the OHP maintains an inventory that easily identifies all
      tangible equitable sharing property, both seized and purchased. In
      response to our recommendation, on page 24 of this report, the OHP
      stated that it would ensure that an inventory log is created and
      maintained to list all property purchased and seized.

      This recommendation can be closed when we receive evidence that the
      OHP maintains an inventory log that identifies all tangible equitable
      sharing property, both seized and purchased.

6.	   Unresolved. The Criminal Division stated that it did not have sufficient
      information to determine whether it fully concurs with this
      recommendation but did not specify in its response to the draft report
      what information was needed. In an e-mail to the OIG dated
      August 14, 2013, the Criminal Division stated that it would work with the
      OIG and OHP to obtain enough information in order to provide an
      adequate response to this finding. In response to our recommendation,



                                      29

      on page 24 of this report, the OHP stated that it will ensure that
      procedures are established for seeking prior approval on any future
      capital expenditure that uses equitable sharing funds.

      This recommendation remains unresolved. The OIG will work with the
      Criminal Division to ensure it has the information necessary to provide
      an adequate response to this finding.

7.	   Unresolved. The Criminal Division stated that it did not have sufficient
      information to determine whether it fully concurs with this
      recommendation but did not specify in its response to the draft report
      what information was needed. In an e-mail to the OIG dated
      August 14, 2013, the Criminal Division stated that it would work with the
      OIG and OHP to obtain enough information in order to provide an
      adequate response to this finding. In response to our recommendation,
      the OHP provided the following comments on unallowable expenditures.

      Unallowable Expenditure No. 1: $996,088 for construction of a troop
      headquarters owned by the Oklahoma Turnpike Authority (OTA) and
      licensed to the Oklahoma Department of Public Safety (DPS).

      On page 24 of this report, the OHP requested in its response that DPS be
      granted an exemption from the Equitable Sharing Guide provisions
      governing building construction on leased land. Because DPS expended
      equitable sharing funds to make capital improvements on property to
      which it has no ownership interest, these expenditures are contrary to
      the Equitable Sharing Guide. Further, the Equitable Sharing Guide
      clearly states that approval from AFMLS is required before making any
      capital expenditures. We were not provided documentation that such
      approval was requested or granted. Moreover, the Criminal Division’s
      response to this report stated that it has not yet obtained enough
      information in order to provide an adequate response to this finding.

      Unallowable Expenditure No. 2: $20,862 for renovation costs of a DPS
      facility shared by both OHP and non-law enforcement sections

      In response to our recommendation, on page 25 of this report, the OHP
      stated that these renovations should have been a shared cost and that
      they would remedy the $20,862.

      Unallowable Expenditure No. 3: $143,903 of fees paid to contractors
      performing functions unrelated to the DOJ Equitable Sharing Program




                                      30

In response to our recommendation, on page 26 of this report, the OHP
explained that these costs should not have been charged to the equitable
sharing fund and that it would remedy the costs of $143,903.

Unallowable Expenditure No. 4: $382,623 of Salaries, benefits and
overtime costs for non-law enforcement OHP personnel

In response to our recommendation, on page 26 of this report, the OHP
stated that some of the $382,623 in expenses had already been
reversed and that they would ensure that the remaining charges were
reversed as well.

Unallowable Expenditure No. 5: $116,512 of fuel and other vehicle
expenditures for DPS sections not primarily responsible for law
enforcement activities.

In response to our recommendation, on page 26 of this report, the OHP
disagreed with the amount of questioned costs, saying that they
believed the unallowable fuel expenditures should have been
$20,002.91 for various DPS divisions. OHP said that there were
Troopers assigned to other divisions that were not listed with a “Troop”
heading on the invoices, such as Recruitment, Command Post, Training
Center, Wrecker Licensing, Homeland Security, and Highway Safety.

However, the OIG did not include in its questioned costs the fuel and
other vehicle expenditures associated with the DPS Homeland Security
office, Highway Safety office, Command Post, and Training Center. The
OIG did question the fuel and other vehicle expenditures of the Wrecker
Services Division, a civilian DPS component that is not primarily
responsible for law enforcement activities and whose personnel,
according to the Oklahoma DPS website, “establish and implement
procedures for the licensing, supervision, administration and control of
wrecker vehicles, and wrecker and towing services.” We also
questioned fuel and other vehicle expenditures associated with
“recruitment” because a DPS component performing such a function is
not primarily responsible for law enforcement activities. Furthermore,
the OHP did not specify how it calculated what it believed was the
$20,002.91 in unallowable fuel expenditures. Based on the available
information, we continue to question this expenditure as unallowable
under Equitable Sharing Guidelines.




                               31

      Unallowable Expenditure No. 6: $24,899 of purchased vehicles used by
      non-law enforcement personnel.

      In response to our recommendation, on page 26 of this report, the OHP
      disagreed with this recommendation, stating that it had received
      conflicting information regarding these vehicles, and that it had checked
      to see if the trucks could be assigned to the Communications &
      Electronics Services section and used to maintain the radio towers.
      OHP said “we were asked if the functions would be law enforcement
      related and we answered yes. The Communications & Electronics
      Services division reports to the law enforcement side of the agency,
      directly to the Assistant Commissioner.” OHP said it would work with
      AFMLS to clarify the situation. However, the equitable Sharing Guide
      requires that law enforcement equipment purchased with equitable
      sharing funds be used by law enforcement personnel only. As a result,
      we continue to question this expenditure as unallowable under Equitable
      Sharing Guidelines.

      Unallowable Expenditure No. 7: $12,546 of seized vehicles used for
      non-law enforcement purposes.

      In response to our recommendation, on page 26 of this report, the OHP
      agreed that the seized semi-tractor and trailer were used for unallowable
      purposes, but disagreed with the questioned amount. However, the
      OHP did not explain why it disagreed with the OIG’s calculation of the
      $12,546 in questioned costs, which we based on the appraised value of
      the semi-tractor and trailer at the time of the OHP’s receipt of the
      equipment, and investigative agency administrative fees because the
      vehicle was primarily used for unallowable purposes. OHP also stated
      that it is now using the trailer for storage.

      This recommendation, comprised of the seven unallowable expenditures
      described above, remains unresolved. The OIG will work with the
      Criminal Division to ensure it has the information necessary to provide
      an adequate response to this finding.

8.	   Resolved. The Criminal Division concurred with our recommendation
      to ensure the OHP remedy $210,216 in unsupported costs related to fuel
      and other vehicle related expenditures for which the OHP could not
      produce adequate documentation. In response to our
      recommendation, on page 26 of this report, the OHP stated that the
      documentation for the fuel purchased was given to the OIG, but the
      department where Troopers were assigned was not well defined. OHP
      stated that of the $210,216 that was questioned, only $15,841.89 is



                                      32

actually unallowable and that the fund will be reimbursed for these
charges.

As stated on page 12 of this report, the OIG questioned the $210,216 in
fuel and other vehicle expenditures because the OHP did not provide
sufficient documentation related to the equitable sharing funds used to
pay for fuel and other vehicle-related expenditures totaling $210,216.
As a result, we were unable to identify the DPS sections and subdivisions
for which the purchases were made. Therefore, the OIG could not
determine if the $210,216 fuel and other vehicle expenditures were used
for allowable purposes. Furthermore, as noted in the OHP’s response,
they agreed that $15,841.89 of the amount questioned was used for
unallowable purposes. However, the OHP did not provide
documentation supporting that the remaining $194,374 was used for
allowable purposes or documentation supporting how it arrived at the
$15,841.89 that it believes is the actual amount of unallowable costs.
As a result, we continue to question the $210,216 in unsupported costs
related to fuel and other vehicle related expenditures.

This recommendation can be closed when we receive evidence that the
OHP remedied the $210,216 in unsupported costs related to fuel and
other vehicle related expenditures for which it could not produce
adequate documentation.




                                33

